      U.S. ELECTION ASSISTANCE 

             COMMISSION

    OFFICE OF INSPECTOR GENERAL





          INDEPENDENT AUDITORS’ REPORT

      U.S. ELECTION ASSISTANCE COMMISSION

            FINANCIAL STATEMENTS FOR

                FY 2012 AND FY 2011





NO. I-PA-EAC-01-12
NOVEMBER 2012
                       U.S. ELECTION ASSISTANCE COMMISSION

                               OFFICE OF INSPECTOR GENERAL

                              1201 New York Ave. NW - Suite 300

                                    Washington, DC 20005




                                                              November 14, 2012



To:	       Ms. Alice Miller,
           Acting Executive Director

From:	     Curtis W. Crider
           Inspector General, U.S. Election Assistance Commission

Subject:	 Audit of the U.S. Election Assistance Commission’s Fiscal Year 2012
          and 2011 Financial Statements.

This memorandum transmits Leon Snead & Co P.C.’s financial statement audit
report of the U.S. Election Assistance Commission (EAC) for Fiscal Years 2012
and 2011.

Results of Independent Audit

The Chief Financial Officer’s (CFO) Act of 1990 (P.L. 101-576), as amended,
requires the EAC Inspector General or an independent external auditor, as
determined by the Inspector General, to audit EAC’s financial statements. Under a
contract monitored by the Office of Inspector General (OIG), Leon Snead & Co.
P.C., an independent public accounting firm, performed an audit of EAC’s Fiscal
Years 2012 and 2011 financial statements. The contract required that the audit be
performed in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States, and Bulletin 07-04, Audit Requirements
of Federal Financial Statements, as amended, issued by the United States Office of
Management and Budget (OMB).

Leon Snead & Co. P.C. (LSC) issued a disclaimer of opinion on EAC’s 2012
financial statement. LSC was unable to obtain sufficient competent evidential
support for the amounts presented in the financial statements as of September 30,
2012. As a result, the scope of LSC’s work was not sufficient to enable them to
express an opinion on the 2012 financial statements. LSC did report that EAC’s
financial statement, as of and for the year ended September 30, 2011, were
presented fairly, in all material respects, in conformity with the accounting
principles generally accepted in the United States of America.
In its report, LSC identified two material weaknesses in internal control over
financial reporting, as defined by auditing standards generally accepted in the
United States of America.

LSC reported no instances of material noncompliance with laws and regulations
that is required to be reported under Government Auditing Standards and OMB
Bulletin 07-04 (as amended).

EAC management’s response, dated November 9, 2012, follows Leon Snead & Co.
P.C.’s report.


Evaluation of Leon Snead & Co. P.C.’s Audit Performance

To fulfill our responsibilities under the CFO Act of 1990, as amended, and other
related financial management requirements, the OIG:

       Reviewed Leon Snead & Co. P.C.’s approach and planning of the audit;

       Evaluated the qualification and independence of the auditors;

       Monitored the progress of the audit at key points;

       Coordinated periodic meetings with EAC management to discuss
       progress, findings, and recommendations;

       Reviewed Leon Snead & Co. P.C.’s audit report;

       Performed other procedures we deemed necessary; and

       Coordinated issuance of the audit report.

Leon Snead & Co. P.C. is responsible for the attached auditor’s report dated
November 14, 2012, and the conclusions expressed in the report. We do not
express any opinion on EAC’s financial statements or conclusions on the
effectiveness of internal control, or compliance with laws and regulations.

Report Distribution

The Inspector General Act of 1978, as amended, requires semiannual reporting to
Congress on all reports issued, actions taken to implement recommendation, and
recommendations that have not been implemented. Therefore, we will include the
information in the attached audit report in our next semiannual report to Congress.
The distribution of this report is not restricted and copies are available for public
inspection.
The Office of Inspector General appreciates the courtesies and cooperation EAC
extended to Leon Snead & Co. P.C. and the OIG staff during the audit. If you, or
your staff, have any questions, please contact me at (202) 566-3125.



Attachment


Copy to: Annette Lafferty, Chief Financial Officer
U. S. ELECTION ASSISTANCE COMMISSION

              Financial Statements

         As of and for the Years Ended

         September 30, 2012 and 2011





                     Submitted By

              Leon Snead & Company, P.C.
  Certified Public Accountants & Management Consultants
                                       TABLE OF CONTENTS




                                                                                                                                Page


Independent Auditor’s Report..............................................................................................1


Opinion ................................................................................................................................2


Internal Control over Financial Reporting...........................................................................4


Compliance with Laws and Regulations............................................................................11


Attachment 1, Status of 2011 Audit Findings and Recommendations ..............................12


Agency Response to Draft Report





                                                                    i
Acting Executive Director
Inspector General
U.S. Election Assistance Commission


                           INDEPENDENT AUDITOR’S REPORT


We were engaged to audit the balance sheet of the U. S. Election Assistance Commission
(EAC), as of September 30, 2012, and the related statements of net cost, changes in net
position, and budgetary resources for the year then ended. We have audited the
accompanying balance sheet, as of September 30, 2011, and the related statements of net
cost, changes in net position, and budgetary resources for the year then ended. These
financial statements are the responsibility of the EAC management. Our responsibility is
to express an opinion on these financial statements based on our audits.

For fiscal year 2012, as discussed in detail later in our report, we were unable to obtain
sufficient competent evidential support for the amounts presented in the financial
statements as of September 30, 2012. Therefore, the scope of our work was not sufficient
to enable us to express an opinion, and we do not express an opinion on the fiscal year
2012 financial statements. We found that the EAC’s financial statements, as of and for
the year ended September 30, 2011, are presented fairly, in all material respects, in
conformity with accounting principles generally accepted in the United States of
America.

Our consideration of internal control would not necessarily disclose all deficiencies in
internal control over financial reporting that might be material weaknesses under
standards issued by the American Institute of Certified Public Accountants. However, our
testing of internal control identified two material weaknesses in internal controls over
financial reporting.

The results of our tests of compliance with certain provisions of laws and regulations
disclosed no instance of noncompliance that is required to be reported herein under
Government Auditing Standards, issued by the Comptroller General of the United States,
and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements, as amended.
REPORT ON THE FINANCIAL STATEMENTS

We were engaged to audit the balance sheet of the EAC, as of September 30, 2012, and
the related statements of net cost, changes in net position, and budgetary resources for the
year then ended (2012 financial statements). We have audited the accompanying balance
sheet of the EAC, as of September 30, 2011, and the related statements of net cost,
changes in net position, and budgetary resources (2011 financial statements) for the fiscal
year then ended.

Except as discussed in the following paragraph, we conducted our audit in accordance
with auditing standards generally accepted in the United States, the standards applicable
to financial audits contained in the Government Auditing Standard, issued by the
Comptroller General of the United States, and OMB Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended. Those standards require
that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement.

For fiscal year 2012, despite significant efforts, EAC was unable to provide accurate and
timely accounting information from its general ledger, could not support amounts
recorded for its grant expenses incurred and advances paid, and due to internal control
and other accounting issues was unable to provide sufficient competent evidential support
for the amounts presented in the 2012 financial statements.

Because of the matters discussed in the preceding paragraph, the scope of our work was
not sufficient to enable us to express, and we do not express, an opinion on the balance
sheet, as of September 30, 2012, and the related statements of net cost, changes in net
position, and budgetary resources for the year then ended.

In our opinion, the 2011 financial statements present fairly, in all material respects, the
financial position of the EAC, as of September 30, 2011, and the net cost, changes in net
position, and budgetary resources for the fiscal year then ended, in conformity with
accounting principles generally accepted in the United States of America.

Accounting principles generally accepted in the United States of America require that
Management’s Discussion and Analysis and information about non-Federal physical
property, and research development be presented to supplement the basic financial
statements. Such information, although not a part of the basic financial statements, is
required by the Federal Accounting Standards Advisory Board (FASAB) who considers
it to be an essential part of financial reporting for placing the basic financial statements in
an appropriate operational, economic, or historical context. This information has not been
subjected to auditing procedures, and accordingly, we do not express an opinion or
provide any assurance on the information contained in this document.

Our audit was conducted for the purpose of forming an opinion on the basic financial
statements taken as a whole. The performance measures, Summary of Management
Challenges, Summary of Financial Statement Audit and Management Assurances, and



Leon Snead & Company, P.C.                     2
reporting details related to the Improper Payments Improvement Act as amended by the
Improper Payments Elimination and Recovery Act are presented for the purposes of
additional analysis and are not required parts of the basic financial statements. Such
information has not been subjected to procedures sufficient to provide any assurance on
it, and accordingly, we do not express an opinion or provide any assurance on it.

RESPONSIBILITIES

Management Responsibilities

Management of the EAC is responsible for: (1) preparing the financial statements in
conformity with generally accepted accounting principles; (2) establishing, maintaining,
and assessing internal control to provide reasonable assurance that the broad control
objectives of the Federal Managers Financial Integrity Act (FMFIA) are met; and (3)
complying with applicable laws and regulations. In fulfilling this responsibility, estimates
and judgments by management are required to assess the expected benefits and related
costs of internal control policies.

Auditor Responsibilities

Except as discussed previously in this report, we conducted our audit in accordance with
auditing standards generally accepted in the United States, the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States, and OMB Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements, as amended. Those standards and bulletin require that we
plan and perform the audit to obtain reasonable assurance about whether the financial
statements are free of material misstatement.

An audit includes (1) examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements; (2) assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial
statement presentation. We believe that our audit provides a reasonable basis for our
opinion.

In planning and performing our audit, we considered the EAC’s internal control over
financial reporting by obtaining an understanding of the agency’s internal control,
determining whether internal controls had been placed in operation, assessing control
risk, and performing tests of controls in order to determine our auditing procedures for
the purpose of expressing our opinion on the financial statements.

We limited our internal control testing to those controls necessary to achieve the
objectives described in OMB Bulletin 07-04, as amended and Government Auditing
Standards. We did not test all internal controls relevant to operating objectives as broadly
defined by FMFIA. Our procedures were not designed to provide an opinion on internal
control over financial reporting. Consequently, we do not express an opinion thereon.




Leon Snead & Company, P.C.                    3
As part of our audit, we performed tests of EAC’s compliance with certain provisions of
laws, regulations, and significant provisions of contracts and grant agreements,
noncompliance with which could have a direct and material effect on the determination
of financial statement amounts, and certain other laws and regulations specified in OMB
Bulletin 07-04, as amended. We limited our tests of compliance to these provisions, and
we did not test compliance with all laws and regulations applicable to the EAC.
Providing an opinion on compliance with certain provisions of laws, regulations, and
significant contract provisions and grant agreements was not an objective of our audit
and, accordingly, we do not express such an opinion our audit.

INTERNAL CONTROL OVER FINANCIAL REPORTING

As part of our audit, we considered the EAC’s internal control over financial reporting as
a basis for designing our auditing procedures for the purpose of expressing our opinion
on the financial statements, but not for the purpose of expressing an opinion on the
effectiveness of the EAC’s internal control. Accordingly, we do not express an opinion
on the effectiveness of the EAC’s internal control.

Because of inherent limitations in internal controls, including the possibility of
management override of controls, misstatements, losses, or noncompliance may
nevertheless occur and not be detected. A control deficiency exists when the design or
operation of a control does not allow management or employees, in the normal course of
performing their assigned functions, to prevent or detect misstatements on a timely basis.
A material weakness is a deficiency, or combination of deficiencies, in internal control,
such that there is a reasonable possibility that a material misstatement of the financial
statements will not be prevented or detected and corrected on a timely basis. A significant
deficiency is a deficiency, or a combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those
charged with governance of the EAC.

Our consideration of internal control was for the limited purpose described in the first
paragraph in this section of the report and would not necessarily identify all deficiencies
in internal control that might be deficiencies, significant deficiencies or material
weaknesses. However, as discussed below, we identified certain deficiencies in internal
control that we consider to be significant deficiencies. Material weaknesses in internal
control over financial reporting have been identified in the following areas:

   •   Preparation of and support for financial statements and footnote disclosures.
   •   Journal vouchers.




Leon Snead & Company, P.C.                     4
Findings and Recommendations

1.	 Material Weaknesses Impacted EAC’s Ability to Prepare 2012 Financial
    Statements

    EAC and its current service provider were unable to provide 2012 financial
    statements that were free of material misstatements and/or provide sufficient
    competent evidential support for the amounts presented in the agency’s financial
    statements for fiscal year 2012. We attributed this problem, primarily, to: (1)
    weaknesses in EAC’s internal controls relating to accounting for advances and grant
    accounting operations; and (2) the failure of EAC’s prior service provider 1 to
    establish controls over the processing of journal vouchers to EAC’s general ledger
    and other accounting processing problems. EAC and the agency’s current service
    provider were unable to provide financial statements free of material misstatements in
    sufficient time to enable us to complete our audit, due in part, to the extensive efforts
    necessary to correct errors in the accounting records. As a result, we disclaimed an
    opinion on the EAC’s 2012 financial statements.

    The Government Accountability Office’s (GAO), Standards for Internal Control in
    the Federal Government, provides that internal control and all transactions and other
    significant events need to be clearly documented, and the documentation should be
    readily available for examination. The documentation requirement should appear in
    management directives, administrative policies, or operating manuals and may be in
    paper or electronic form. All documentation and records should be properly managed
    and maintained. OMB Circular A-136, Financial Reporting Requirements, provides
    that reporting entities should ensure that information in the financial statements is
    presented in accordance with GAAP for Federal entities and the requirements of the
    Circular.

    The problems we identified during the audit of the 2012 financial statements are
    detailed below.

        a.	 Interim testing identified significant problems with the financial statements,
            footnotes, and documentation necessary to support the fair presentation of the
            financial statements in accordance with FASAB and OMB Circular A-136.
            The problems resulted in the June 30, 2012, financial statements being
            materially misstated, and contributed significantly to the problems that the
            EAC, and its current service provider had in the preparation of the agency’s
            September 30, 2012, financial statements.

             We identified significant errors in the processing of advances by EAC and/or
             its service providers. As part of our testing of grant advances, we obtained a

1
  EAC changed accounting service providers effective July 1, 2012. To separate issues we have identified
the service provider used by EAC prior to July 1 as the prior service provider. The service provider used
by EAC after June 30 is identified as the current service provider. The current service provider converted
the EAC accounting data in order to process the records on its accounting system.


Leon Snead & Company, P.C.                           5
             detailed listing of grants included in the EAC’s 2012 financial statements
             along with supporting records so that we could confirm the validity of the
             advances. Our review of these records disclosed significant errors. For
             example, we identified that: (1) a $449,971 advance to one federal agency was
             incorrectly recorded as an operating expense; (2) other advances that should
             have been completely or partially expensed during the year; and (3) advances
             that should have been recorded as an accounts receivable because the purpose
             of the advance had expired. These errors materially misstated the 2012
             financial statements, as detailed in the table below.

        Grantee/Federal    Advance per      Expense per   Advance per      Expense per      Receivable per
           Agency              GL               GL          Auditor          Auditor           Auditor


        Grantee                $8,000.00                          $0.00         $8,000.00
        Grantee                $8,851.67                      $1,093.00         $7,758.67
        Federal Agency       $147,579.10                     $63,376.91        $84,284.20
        Federal Agency                      $449,971.00     $328,745.00       $121,226.00
        Federal Agency        $20,000.00                                                         $20,000.00
        Grantee                   ($0.39)                        ($0.39)
        Grantee              $485,549.00                                      $485,549.00
        Grantee              $302,096.23                                                        $302,096.23


        Totals               $972,075.61 $449,971.00        $393,214.52       $706,817.87       $322,096.23


        Change to GL                                        $578,861.09       $256,846.87       $322,096.23


                  Based upon our analysis, we proposed and EAC made adjustments to the
                  general ledger totaling approximately $1.13 2 million dollars.

             •	 Undelivered orders 3 (UDO) subsidiary records were out-of balance, in
                absolute values, approximately $2.1 million with corresponding general
                ledger accounts. This was due, in part, to incorrectly posted grant
                advances by the prior service provider. We also reported a problem with
                UDO in our 2011 financial statement audit. The table below shows the
                differences we noted between the subsidiary undelivered orders records
                and the general ledger.




2
  This amount represents the absolute value of the changes made to EAC’s advance, receivable and expense 

general ledger accounts as shown on the last line of the table.

3
  The amount of goods and/or services ordered, which have not been actually or constructively received.

EAC officials advised us that a significant portion of the problem with UDO related to grants and advances,

corrections on some issues were not processed by the prior service provider. The errors impacted the

ability to apportion multi-year funds because the SF 133 and agency records did not balance.



Leon Snead & Company, P.C.                            6
          Fund       Service Provider         General Ledger             Out of Balance
                      Aging Report               Balance                   Amount
        2008                ($63,558.74)              ($63,558.74)                      $0.00
        2009                 $856,508.99              ($40,967.96)                $897,476.95
        2010               ($223,294.47)             ($165,926.79)               ($57,367.68)
        2011               ($417,875.21)             ($233,223.30)              ($184,651.91)
        2012               ($706,178.08)             ($675,708.80)               ($30,469.28)
        803X            ($21,548,799.21)          ($20,557,919.39)              ($990,879.82)
        809              ($3,186,085.00)           ($3,186,085.00)                      $0.00
        810X                   ($230.00)                 ($230.00)                      $0.00
        Totals          ($25,289,511.72)          ($24,923,619.98)              ($365,891.74)

               The amounts shown above represent a material error in the EAC’s
               accounting system and internal control processes. In addition, during our
               audit, we were advised by EAC officials that the inability to reconcile the
               SF 133, Report on Budgetary Execution and Budgetary Resources, to
               general ledger records significantly impacted the re-apportionment of
               available multi-year funds during FY 2012.

               EAC and its current service provider worked to resolve this and related
               problems in the accounting records; however, these issues continued to
               impact the financial statements until the current service provider processed
               an approximate $1.2 million JV to correct the out-of-balance condition
               during early November 2012. While the JV was provided too late to audit,
               we did note that the corrections processed also appeared to incorrectly
               impact other general ledger budgetary accounts.

           •	 The Statement of Net Cost (SNC) and related footnote disclosure
              contained material errors in both the June 30 and September 30, 2012,
              financial statements. We identified that the SNC and related footnote
              disclosure were incorrect due to accounting errors made in recording
              advances, incorrect grant costs, and because of other problems discussed
              in this report. For example, information provided by EAC showed that
              grant expenses were about $1.2 million more than the amounts included in
              the calculations for the SNC footnote disclosure. This problem related
              primarily to grant costs and grant accruals that could not be reconciled
              between the general ledger records and EAC’s subsidiary grant accounting
              records. EAC and its current service provider are still researching the
              reason for this difference, as of November 1, 2012.

               We requested from EAC officials documentation to support the footnote
               disclosure that identifies the grant payments made to grantees by grant
               type for fiscal year 2012. We reviewed this documentation, and noted
               differences between the detailed supporting records provided by EAC, and
               the grant payments listed in the footnote. We selected a non-statistical
               sample of three of the supporting grant records, and found that one grant


Leon Snead & Company, P.C.                   7
               was omitted from the footnote, but should have been included as the funds
               were provided to the grantee during the fiscal year. For another sample,
               records showed that the grantee had incurred expenses during fiscal year
               2012, and should have been included in the footnote, but was not.

           •	 Accounts payable was materially misstated in the June 30 and September
              30, 2012, financial statements. During our interim testing, we questioned,
              among other issues, whether the accounts payable line item was correctly
              presented since there were large abnormal balances included in the general
              ledger account that could not be explained by the prior service provider.
              During our final testing, we also determined that the process followed by
              EAC to determine the amount of grant accruals that should be recorded,
              and the amount of the expenses that should be accrued for other entities
              with outstanding advances was not documented. As a result, the accrual
              procedures were ineffective. For example, we identified: (1) about
              $485,000 for one grantee was omitted from EAC’s grant accruals; and (2)
              about $84,000 was omitted for one non-grant accrual for another federal
              agency.

               In our analysis of the financial statements, we identified that the first set of
               financial statements had erroneously excluded a significant amount of
               liabilities. Subsequent financial statement versions show liabilities
               increasing by approximately $100,000.

       b.	 Significant problems were identified during our audit with the accounting data
           recorded in EAC’s general ledger by the agency’s prior service provider.
           EAC and its current service provider confirmed these problems, and identified
           additional issues with the general ledger accounting data. The correction of
           these errors required considerable time and effort by both EAC and the current
           service provider. In our opinion, this was a major factor preventing the EAC
           and the current service provider from providing agency financial statements
           for audit at the agreed upon due date of October 18, 2012.

           When we did receive the first version of the financial statements on October
           25 without footnotes, we found material and pervasive errors including that
           the Balance Sheet did not balance, the Statement of Net Cost was incorrect,
           the Statement of Budgetary Resources was incorrect, many of the footnotes
           did not contain correct information, did not reconcile with the statements, or
           were not correctly presented. We were provided with several additional
           financial statement versions (the last version was received on November 1)
           that corrected many, but not all of the problems.

   Recommendations:

       1.	 Ensure that EAC personnel with federal accounting expertise, including the
           preparation of financial statements, are available to assist EAC officials in



Leon Snead & Company, P.C.                     8
           providing appropriate oversight and reporting of its financial and accounting
           operations.

       2.	 Develop a detailed operating procedure that provides guidance on the
           preparation, review and approval of agency financial statements, and requires
           supporting documentation to be compiled, reviewed and approved for all
           financial statement line items and footnotes prior to submission for audit.

       3.	 Develop policies and detailed operating procedures relating to the accounting
           for and control of advances made by EAC. Ensure these policies and
           procedures specify: (a) under what circumstances advances are provided; (b)
           roles and responsibilities; and (c) monitoring and reporting requirements for
           determining when advances are reduced, and/or accounts receivable should be
           recorded so that accounting records are accurate. Reconsider providing
           advances to other federal agencies.

       4.	 Review accounting, grant and contracting records for fiscal year 2012 to
           ensure that all advances have been properly recognized in the agency’s
           accounting and subsidiary records.

       5.	 Take action to have advances promptly returned to the agency when either the
           grant has expired, the purpose of the grant has been completed, when the
           purpose of the non-grant advance has been accomplished, or when the funds
           are not being used in a timely manner.

       6.	 Ensure that problems identified with undelivered orders in the accounting
           system are corrected, and controls are established to prevent such problems in
           the future.

       7.	 Complete the analysis of differences between EAC grant subsidiary records
           and the general ledger accounting system, and make necessary adjustments to
           those systems that are incorrect. Maintain documentation of the problems
           noted, and revise or issue EAC policies and operating procedures to ensure
           that the problem does not recur.

       8.	 Strengthen EAC’s subsidiary grant records to ensure that accurate and
           complete information is maintained on grant advances, disbursements, and
           other required information.

       9.	 Strengthen EAC policies and procedures for identifying the amount that
           should be accrued for grant and non-grant liabilities.

2.	 Errors and Lack of Controls over Journal Vouchers Continue

   Journal Vouchers (JVs) prepared by EAC’s prior service provider were prepared in
   error, did not adhere to standard general ledger posting models, and did not have



Leon Snead & Company, P.C.                  9
   documentation to support the entries posted to EAC’s general ledger. The prior
   service provider bypassed internal controls that they had agreed to implement in
   response to problems first noted in our 2009 financial statement audit. In addition,
   there was insufficient oversight by EAC accounting personnel to identify and correct
   the errors. Bypassing of control processes for critical documents such as JVs
   substantially increases the risk of misstatements, and was a contributing factor in
   disclaimer of opinion on the EAC 2012 financial statements.

   JVs bypass accounting and reporting edits built into an accounting system. Since the
   Treasury approved U. S. Standard General Ledger (USSGL) posting models are
   bypassed, any entry included on the JV will be posted to the general ledger.
   Therefore, it is critical that controls are in place to limit the number of JVs processed,
   that documentation clearly supports the reason for the JV, and the entries proposed be
   thoroughly reviewed and approved by supervisory personnel.

   OMB Circular A-127, Financial Management Systems, requires that “financial events
   shall be recorded applying the requirements of the U.S. Government Standard
   General Ledger (USSGL). Application of the USSGL at the transaction level means
   that each time an approved transaction is recorded in the system, it will generate
   appropriate general ledger accounts for posting the transaction according to the rules
   defined in the USSGL guidance.” The GAO’s, Standards for Internal Control in the
   Federal Government,” provides that internal control and all transactions and other
   significant events need to be clearly documented, and the documentation should be
   readily available for examination. The GAO standards further provide that the
   documentation requirement should appear in management directives, administrative
   policies, or operating manuals.

   Documentation provided, at our request, to support the purpose, amount and posting
   entries for a sample of JVs selected during our interim testing was not sufficient to
   determine whether the entries were appropriate. We selected for testing 13 of the 33
   JVs processed to the general ledger during the first nine months of fiscal year 2012.
   (Only 21 of the JVs were included on the JV control log provided to us; however, we
   identified an additional 12 JVs that were processed by the prior service provider
   though our analysis of the transaction database.)

   We identified problems with nine of the 13 JVs sampled. Seven of the JVs posted
   entries to the general ledger that were not in accordance with approved USSGL
   posting models, and two contained other errors. For example, one JV, totaling
   approximately $141,000, was processed to attempt to correct previous JV posting
   errors. While supporting documentation provided by the prior service provider was
   minimal, we were able to determine that the JV did not correct the errors, and resulted
   in EAC’s status of funds report to OMB not to balance. Many of these JVs were
   reversed and/or corrected when reviewed by the current service provider.




Leon Snead & Company, P.C.                    10
   Recommendations:

       1.	 Implement an internal control process that provides appropriate agency
           oversight over the JVs processed by the current service provider.

       2.	 Provide training to EAC accounting personnel to ensure that they have the
           skills to provide adequate oversight of this area.

COMPLIANCE WITH LAWS AND REGULATIONS

The results of our tests of compliance with certain provisions of laws and regulations, as
described in the Responsibilities section of this report, disclosed no instance of
noncompliance with laws and regulations that is required to be reported under
Government Auditing Standards, and OMB Bulletin 07-04 (as amended).

Management of EAC reported the above material weaknesses in its reporting prepared
pursuant to the Federal Managers’ Financial Integrity Act (FMFIA).

A summary of the status of prior year findings is included as Attachment 1.

AGENCY RESPONSE AND AUDITOR COMMENTS

The Acting Executive Director and Chief Financial Officer responded to the draft report
in a memorandum dated November 8, 2012. In the response, the EAC officials stated
that reduced funding, staffing reductions, including the loss of personnel with accounting
expertise, and other factors impacted financial management operations during the 2012
fiscal year. The officials generally agreed with the audit recommendations, and
summarized the actions the agency plans to take to implement the recommendations.

The EAC’s written response to the material weaknesses identified in our audit was not
subjected to the auditing procedures applied in the audit of the financial statements and,
accordingly, we express no opinion on it.

DISTRIBUTION

This report is intended solely for the information and use of the management, the Office
of Inspector General, and others within the EAC, OMB, and Congress, and is not
intended to be and should not be used by anyone other than these specified parties.


Leon Snead & Company, P.C.
November 14, 2012




Leon Snead & Company, P.C.                   11
                                                                                                                                                      Attachment 1



                                                      Status of 2011 Audit Findings and Recommendations

Finding
                        Finding Summary                                  Recommendations 4                              Status as of September 30, 2012
  No.
 1a.          For our tests of year-end financial            1. Strengthen the agreement with the service        Open. EAC has taken actions to address these two
              statements, documentation necessary to         provider to ensure that financial statements and    recommendations by changing service providers, and by
              support the financial statements and           supporting documentation are required to be         planning to hire a full-time accountant to assist in the
              footnotes was frequently not provided          provided to EAC and its auditors in a timely        monitoring of agency accounting operations. However,
              timely, and in some cases did not initially    manner.                                             we continued to find problems with the JVs processed
              support the financial statements or                                                                during a significant portion of the 2012 fiscal year;
              footnotes. In order to opine to the fair       2. Develop specific information requirements        therefore the recommendations remain open.
              presentation of the EAC financial              and checklists that the service provider must
              statements, we were required to perform        complete and provide to EAC to support interim
              substantial additional audit testing and       and year-end financial statements.
              apply other auditing procedures to satisfy
              ourselves as to the completeness and
              accuracy of areas tested.
 1b.          We identified posting model errors in the       3. Obtain assurances from the service provider     Closed. EAC has addressed this recommendation by
              service provider’s accounting system that       that necessary controls are in place and           changing service providers.
              resulted in misclassifying capital assets as    operating effectively concerning the validation
              an operating expense, errors in posting a       of posting models and changes made to the
              transfer of funds to another federal            posting models.
              agency, and direct entries to equity
              accounts.
 1c.          Journal vouchers (JV) initiated and             4. Review all 2011 fiscal year JVs that have       Open. Errors continued to be made by in JVs posted to
              processed by the service provider to the        not been approved by EAC to ensure that the        the agency’s general ledger through June 30, 2012,
              general ledger were not provided to EAC         entries are proper. Require the service provider   when EAC moved its accounting operations. EAC’s
              officials for review and approval, and/or       to provide documentation that supports it meets    oversight of this area was not sufficiently effective.
              necessary supporting documentation was          published control procedures relating to
              not provided to enable a determination on       preparation of JVs.
              the appropriateness of the entries made.



   4
       All discussions in this table refer to the EAC’s prior service provider.


   Leon Snead & Company, P.C.                                                      12
                                                                                                                                                 Attachment 1



Finding
                   Finding Summary                                  Recommendations 4                               Status as of September 30, 2012
  No.
 1d.      The financial statements presented for         5. Ensure that the service provider corrects the    Opened. Problems continued with the ability of the
          audit contained errors that if not corrected   problem with its undelivered order aging            EAC to provide timely, competent evidence to support
          would have resulted in qualifications to       report.                                             the amounts reported in the 2012 financial statements.
          the audit opinion on the 2011 and 2010
          financial statements and footnotes.             6. Ensure that EAC’s internal controls over        Open. Controls over the preparation of and support for
                                                          financial reporting, including strengthened        the financial statements remained a problem.
                                                          oversight over its accounting service provider,
                                                          are re-established.
   2.     EAC       processed   an   approximately       7. Require the service provider to correct this     Closed. EAC provided information to address this
          $613,000 transfer to the National Institute    posting model error, and identify and correct all   recommendation
          of Standards and Technology (NIST) in          transactions processed under this posting model
          early December 2010. Because errors            during this fiscal year.
          were made by the service provider, EAC’s
          general ledger records showed it did not
          have sufficient available funds to make
          this transfer.




  Leon Snead & Company, P.C.                                                   13
  To: 	 	 Response
Subject:            tD DraftInspectDr
            Curtis Crider,    Audit RepDrt  of the U.S. ElectiDn Assistance CDmmissiDn's
                                      General
          Financial Statements  for Fiscal Years
            Arnie Garza, Deputy InspectDr General 2012 and 2011 (Assignment ND. [-PA-EAC-OI­
             U.S. ELECTION ASSISTANCE COMM ISSION
             1201 NEW YOR K AVENUE. N .W " SU ITE 300 

             WASHINGTON . O.c. 20005 
                            November 8, 2012




  From: 	 Alice Mille.z(J~Apertt~~ cer and Acting E."ecuti~e ,Director
            Annette   L~~ <1hk'f11'fnancIaI Office~~~
                      /'




            [ 2)


  FDr the past three years, the ElectiDn Assistance CDmmissiDn (EAC) has obtained unqualified
  audited financial statements. This was primarily due to the effDrts of an experienced staff
  accountant hired in April 2009 in large part based Dn findings in the agency's first financial
  statement audit for FY 2008 . After EAC ' s full-time staff accountant left the agency in
  September 2011, EAC tDDk intD cDnsideratiDn CDncerns from CDngress and YDU that the agency
  has tOD many administrative staff at the expense of prDgram staff. Further, as you knDW, a bi ll
  has passed to eliminate EAC, and efforts tD mDve functions Dr drastically reduce EAC's salaries
  and expenses funding have Dccurred. EAC instituted a hiring freeze beginning October 1,20 10.
  NDt including statutDry pDsitiDns (CDmmissiDners, Executive DirectDr and General CDunsel),
  EAC has gDne frDm 46 full-time stafftD its current level Df24 full -time staff. As staff left, duties
  were reassigned tD remaining staff. We alsD pledged to make DperatiDns as efficient as pDssible.
  These factDrs were heavily influential in the decisiDn tD replace the full-time aCCDuntant with a
  half-time Certified Public Accountant (CPA). As you knDW, Dn July 1, 20[2, EAC changed
  financial service providers. With the memDrandum of understanding with the new service
  provider came EAC's first autDmated procurement, travel and purchase card systems which
  improve Dur efficiency, financial dDcumentatiDn and accuracy. There was an understanding that
  the new service provider alDng with the half-time C PA WDuid provide sufficient guidance tD
  produce sound financial statements.

  At the time EAC changed service providers, the new service provider was transitiDning tD a
  financial system versiDn. It was discDvered that the previDus service provider' s cDntrols were
  nDt compatib le with thDse of the new prDvider. For example, the previDus prDvider in many
  cases did nDt cDde vendors with accurate Office Df Management and Budget-required Data
  Universal Number System (DUNS) numbers in the general ledger. A large number Df DUNS
  numbers were cDllected by EAC and staff of the new prDvider, which automatically SDrtS data
  into the apprDpriate federal and non-federal categDries, and the numbers were verified before
  entry into the new financial system.

  The cDnversion Df data from the original service provider tD make the data cDmpatible with
  cDntrols required by the new service provider, in additiDn tD the new provider system upgrade,
  IDss of three prDgram staff whD wDrked with the staff aCCDuntant Dn recDrding of advances tD
  Dther agencies and grants have left the agency since April 20 I [ , and due to deficiencies in

                                                           1

                           Tel : (202) 566-3100       www.eac.gov       Fa x: (2 02) 566-3127 

                                              Toll free: 1 (866) 747-1471 

agency accounting expertise proved to be more difficult than anticipated by the individuals
involved in the process. Further, it became apparent that even though we are a microagency, a
full-time accountant who knows EAC programs and operations is needed in addition to financial
services provided by other federal agencies. In our experience this has been the case with two
different federal financial service providers. Therefore, we plan on hiring a full-time EAC
accountant with auditing experience and preferably a CPA to provide appropriate agency
expertise.

Following, please find the Election Assistance Commission (EAC) response to recommendations
made in the Draft Audit Report for Fiscal Years (FYs) 2012 and 2011. Our next step will be to
develop an action plan to address the findings and to restore our internal controls to the level we
had operated under during between April 2009 and September 2011 when we had a full-time
experienced accountant.

Recommendation 1.: Ensure that personnel with federal accounting expertise, including the
preparation of financial statements, are available to assist EAC officials in providing appropriate
oversight and reporting of its financial and accounting operations.

Management Response: EAC recognizes that a part-time staff accountant with extensive
federal accounting experience but without audit experience is not sufficient to fulfill the
requirements for sound internal controls. A vacancy announcement has been posted for a full­
time EAC accountant with federal accounting and auditing experience and preferably a CPA to
provide appropriate agency expertise. Further, a full-time accountant is even more critical now
with the turnover of program staff who worked with the accountant on recording of advances to
other agencies and grants since April 2011.

Recommendation 2.: Develop a detailed operating procedure that provides guidance on the
preparation, review and approval of agency financial statements, and requires supporting
documentation to be compiled reviewed, and approved for all financial statement line items and
footnotes prior to submission for audit.

Management Response: EAC has an extensive Accounting Manual and spreadsheets in place
to produce its own financial statements as well as systems to collect, review and present
supporting documentation. The staff member will follow the EAC Accounting Manual
procedures and will ensure that necessary statements and supporting documentation for all financial
statement line items and footnotes is accurate, complete and timely, is compiled, reviewed, and
approved by EAC personnel before being provided for audit.

Recommendation 3.: Develop policies and detailed operating procedures relating to the
accounting for and control of advances made by EAC. Ensure these policies and procedures
specify: (a) under what circumstances advances are provided; (b) roles and responsibilities; and
(c) monitoring and reporting requirements for determining when advances are reduced, and/or
accounts receivable should be recorded so that accounting records are accurate. Reconsider
providing advances to other federal agencies.

Management Response: EAC's Accounting Manual provides basic procedures for advances
and accounts receivable. More extensive procedures identifying roles and responsibilities,

                                                   2

internal controls and detailed information on how to account for and monitor advances and
accounts receivable are drafted. EAC plans on working with the new financial services provider
on finalizing clear and complete procedures for EAC staff and both agencies. We will also
reconsider providing advances to other federal agencies.

Recommendation 4.: Review accounting, contracting and grant records for fiscal year 2012 to
ensure that all advances have been properly recognized in the agency's accounting system and
subsidiary systems.

Management Response: To the best of our knowledge, issues with the records for advances
have been identified and EAC's new financial services provider has resolved or is resolving the
issues for FY 2012. We will review all financial documents FY 2012 to ensure they have been
properly recorded, with special focus on the recording of advances. EAC will work with the new
accountant and service provider on reviewing and documenting all advances reported on the
financial statement to ensure that errors are researched, approved and corrected so that the
general ledger account 1410 is properly stated.

Recommendation 5.: Take action to have advances promptly returned to the agency when
either the grant has expired, the purpose of the grant has been completed, when the purpose of
the grant has been accomplished, or when the funds are not being used in a timely manner by the
entity that had received the advance.

Management Response: Our plan is to ensure that the detailed procedures for advances and
receivables mentioned above and EAC's Grants Handbook include criteria for treatment of
advances.

Recommendation 6.: Ensure that problems identified with undelivered orders (UDOs) in the
accounting system are corrected, and controls are established to prevent such problems in the future.

Management Response: The UDO out-of-balance condition was previously identified by the
agency but remained uncorrected by the prior service provider. We will work with the current
service provider to resolve the impact that the journal voucher which corrected the condition has
on other general ledger budgetary accounts.

Recommendation 7.: Complete the analysis of differences between EAC grant subsidiary
records and the general ledger accounting system, and make necessary adjustments to those
systems that are incorrect. Maintain documentation of the problems noted, and revise or issue
EAC policies and operating procedures to ensure that the problem does not recur.

Management Response: Our analysis to date shows that the issues stated in recommendation 7
stem primarily from overstated accruals estimated at the end of FY 2011, and the lack of a
checklist to ensure that financial transactions relating to grants are not only recorded in our grant
subsidiary records but are recorded in the general ledger accounting system and are accurate.
Accruals were omitted from the end-of-year open obligation reports on September 27, 2012 due
to issues with the conversion processes. We plan on documenting accrual procedures along with
the advance and receivable procedures previously mentioned, and ensuring that staff who,


                                                  3

subsequent to staff turnover, currently have new and primary responsibility for these
transactions.
Recommendation 8.: Strengthen EAC's subsidiary grant records to ensure that accurate and
complete information is maintained on grant advances, disbursements, and other required
information.
Management Response: We will produce supporting documentation and review for
completeness and accuracy, for all transactions in the subsidiary grant records and general ledger
accounting system. Further, we will work on a system of reporting of the data to management on
a regular basis.
Recommendation 9.: Strengthen EAC policies and procedures for identifying the amount that
should be accrued for grant and non-grant liabilities.

Management Response: Please see the response to Recommendation 7. above.
Recommendation 10.: Implement an internal control process that provides appropriate agency
oversight over the processing of N s by the current service provider.

Management Response: We agree that a sound internal control process and oversight are
necessary for the processing of Journal Vouchers (Ns). We will work with the current service
provider on a review and documentation process for necessary N s to ensure the reasons for the
entries and the amounts for them are clear and agreed upon.

Recommendation 11.: Provide training to EAC accounting personnel to ensure that they have
the skills to provide adequate oversight of this area.

Management Response: EAC currently has no accounting personnel. We plan on hiring a staff
accountant with proven skills in working with N s to provide adequate agency oversight of the
processing of N s.




                                                4

                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
